APPENDIX A
COURT OF APPEALS
DIVISION ONE
FOR THE STATE OF ARIZONA
MEMORANDUM DECISION

NOTICE: NOT FOR OFFICIAL PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME
COURT 111(c), THIS DECISION IS NOT
PRECEDENTIAL AND MAY BE CITED ONLY
AS AUTHORIZED BY RULE.
IN THE ARIZONA COURT OF APPEALS
DIVISION ONE JP MORGAN CHASE BANK,
Plaintiff/Appellee,
v.

JOHLEN

and

MELISSA

JOHNSON,

Defendants/Appellants.
No. 1 CA-CV 19-0369 FILED 4-23-2020
Appeal from the Superior Court in Mohave
County No. L8015CV201907011 The
Honorable Eric Gordon, Judge AFFIRMED
COUNSEL
Greenburg

Traurig,

LLP,

Phoenix By

Nicole M. Goodwin, Matthew P. Hoxsie
Counsel for Plaintiff/Appellee
Melissa Johnson, Bullhead City
Defendant/AppellanC
MEMORANDUM DECISION

Judge Kent E. Cattani delivered the decision of
the Court, in which Presiding Judge Paul J.
McMurdie and Judge Jennifer B. Campbell
joined.
CATTANI, Judge:
fl Melissa Johnson appeals from the superior
court’s judgment finding her and her husband
guilty

of

forcible

detainer

and

awarding

JPMorgan Chase Bank, National Association
(“Chase”) immediate and exclusive possession of
a residence in Bullhead, Arizona. For reasons

■

that follow, we affirm.
FACTS AND PROCEDURAL

BACKGROUND
f2 In January 2019, Chase purchased the
Johnsons’ residence at a trustee’s sale and
promptly recorded the trustee’s deed. Early the
next month, Chase mailed the Johnsons a notice
to vacate and posted the notice to their front door.
The Johnsons did not leave, and Chase filed this
forcible detainer action.

'

...

f 3 The Johnsons answered the complaint and, as
relevant here, offered as an affirmative defense
that Chase “[was] not the beneficiary, or the
Grantee and the Trustees Deed is-void and the
sale must be set aside.” Chase then moved for
judgment on the pleadings, which the Johnsons
opposed on the basis that the trustee’s sale was
void.
Relying

on

Chase’s

superior

right

to

possession under the trustee’s deed, the superior
court found Johnson and her husband guilty of
forcible detainer and entered judgment in favor of
Chase for immediate possession of the property.
Johnson appealed.
DISCUSSION
^[5 Johnson agrees that Chase purchased the
property for over $60,000 at a trustee’s sale in
January 2019. Her sole argument attacks the
validity of the trustee’s sale: “[Chase] and the
trustee are one in the same and additionally they
are both beneficiary, and substituted trustee,

therefore the Trustees Deed is void and the sale
must be set aside because this trustee lacked
authority to conduct the sale.”
f6 But this argument addresses the merits of
title and thus is beyond the scope of a forcible
detainer action. See A.R.S. § 12-1177(A) (“On the
trial of an action of. . . forcible detainer, the only
issue shall be the right of actual possession and
the merits of title shall not be inquired into.”); see
also Curtis v. Morris, 186 Ariz. 534, 534 (1996).

* 1

Moreover, any challenge to the trustee’s sale

* JC-

must be pursued before the sale has been
completed; the trustor may not challenge the
completed sale based on pre-sale objections. See
A.R.S. § 33-811(C); BT Capital, LLC v. TD Serv.
Co. of Ariz., 229 Ariz. 299, 301, 1 11 (2012). The
trustee’s deed raised a presumption that the sale
comported with statutory requirements,

see

A.R.S. § 33-811(B), and Johnson has .offered no
basis to overcome either this presumption or

>

waiver under § 33-811(C). Accordingly, we affirm
the forcible detainer judgment.
CONCLUSION
if 7 Chase requests an award of attorney’s fees
and costs on appeal as a sanction under A.R.S. §
12-349 and ARCAP 25. In an exercise of our
discretion,

we

decline

Chase’s

request

for

attorney’s fees. As the successful party, however,
Chase is entitled to an award of costs on appeal
upon compliance with ARCAP 21. The forcible
detainer judgment is affirmed.

APPENDIX B
SUPREME COURT
STATE OF ARIZONA
DISCRETIONARY REVIEW
DENIED

November 13, 2020 Supreme Court STATE OF
ARIZONA
BUILDING

ARIZONA
1501

STATE

WEST

COURTS

WASHINGTON

STREET, SUITE 402 PHOENIX, ARIZONA
85007 TELEPHONE: (602) 452-3396 JANET
JOHNSON Clerk of the Court RE: JP MORGAN
CHASE BANK v JOHLEN and MELISSA
JOHNSON Arizona Supreme Court No. CV-200141-PR Court of Appeals, Division One No. 1
CA-CV 19-0369 Mohave County Superior Court
No. L8015CV201907011
GREETINGS: The following action was taken by
the Supreme Court of the State of Arizona on
November 12, 2020, in regard to the abovereferenced cause: ORDERED: Petition for Review
= DENIED. FURTHER ORDERED: Request for
Attorneys' Fees (Appellee JP Morgan Chase
Bank) = DENIED. A panel composed of Vice Chief
Justice Timmer, Justice Gould, Justice Lopez and
Justice

Montgomery

participated

in

the

determination of this matter. Janet Johnson,
Clerk TO: Johlen Johnson Melissa Johnson
Matthew P Hoxsie
Nicole M Goodwin
Amy M Wood
Pm

APPENDIX C
PETITIONERS
OPENING BRIEF

Additional material
from this filing is
available in the
Clerk's Office.

